              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Tank Waste Feed Delivery System
Readiness at the Hanford Site




OAS-L-12-09                          August 2012
                                  Department of Energy
                                    Washington, DC 20585

                                         August 23, 2012


MEMORANDUM FOR THE MANAGER, OFFICE OF RIVER PROTECTION



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Tank Waste Feed Delivery
                         System Readiness at the Hanford Site"

BACKGROUND

The Department of Energy's largest cleanup task involves the treatment, immobilization and
disposal of 56 million gallons of hazardous and highly radioactive waste at the Hanford Site,
located in Southeastern Washington State. As part of this effort, the Department is constructing
the Waste Treatment and Immobilization Plant (WTP) to treat and immobilize the waste in
preparation for permanent disposal in a geological repository. The total cost to construct the
WTP currently is estimated at $12.2 billion. Bechtel National Inc. (BNI), the contractor for
design and construction of the WTP, is now involved an effort to re-baseline the estimated
project cost.

To support the operation of the WTP, the Department will need to complete a system to deliver
waste to the WTP. As now conceived, the waste feed delivery system is a series of 30 discrete
subprojects involving tasks such as waste retrieval; mixing/blending of waste types;
characterization and analysis of waste properties; and, transferring of waste. Responsibility for
the design, construction, and operation of the system, as well as operation of the tank farms
where the waste is currently stored, has been contracted to Washington River Protection
Solutions (WRPS). As part of the American Recovery and Reinvestment Act of 2009, the
Department awarded WRPS approximately $324 million to accelerate completion of WTP
related infrastructure upgrades for the Hanford Site tank farms.

Although portions of the waste feed delivery system are in place, much still needs to be installed.
Portions of the existing system will also require upgrades before the system can support WTP
startup and operations. Because of the Department's priority in cleaning up high-level waste and
the role of the WTP in accomplishing the cleanup mission, we initiated this audit to determine
whether the Department will complete the waste feed delivery system in time to support WTP
operations when it begins in 2019.
CONCLUSIONS AND OBERVATIONS

The Department made progress in completing the waste feed delivery system to support
operations of the WTP. We found that the Department completed a number of waste feed
delivery sub-projects earlier than planned and was on track to complete other critical path
activities. We noted, however, that a number of challenges remain for completing the
construction and operation of the waste feed delivery system. Specifically, the Waste
Acceptance Criteria (WAC) that defines the specific WTP waste feed criteria and associated
controls had not yet been finalized. Uncertainties with tank waste mixing and sampling could
also impact the delivery of waste to the WTP. The Department was aware of these problems and
told us that it had plans and strategies in place to mitigate the associated risks.

                                  System Readiness and Schedule

The Department completed a number of waste feed delivery upgrades with Recovery Act funds
and reported that it is generally on schedule to complete the remaining sub-projects. Specific
upgrades were prioritized by tank farm and aligned with the WTP schedule for commissioning in
2018. Waste feed delivery upgrades completed using Recovery Act funds included
infrastructure upgrades, upgrades to tank farm ventilation systems, tank farm transfer lines,
upgrades to the 222-S Laboratory, and design of the submersible mixer pumps. Many of these
upgrades were not scheduled to be completed until later in the contract but were accelerated and
completed with Recovery Act funds.

Despite its progress, the Department is behind schedule on a near-term priority to procure
submersible mixer pumps that are used to mix tank waste prior to feeding waste to the WTP
Pretreatment facility. Mixing/sampling demonstration activities are also behind schedule and
over budget. As of May 2012, WRPS's Earned Value Management System (EVMS) indicated
that submersible mixer pump procurements were behind schedule. These procurements were
behind schedule because corrosion/erosion test results were completed later than planned and
delayed the subcontract award for pumps. According to the waste feed delivery Federal Project
Director, the test results had since been completed and the subcontract was ready for award.
However, the lack of available funding has delayed the procurement of the mixer pumps until
Fiscal Year 2013.

Additionally, the schedule and budget for the waste feed delivery mixing/sampling
demonstration activities have been impacted by a recent requirement to designate the Tank Farm
ventilation systems as Safety Significant Systems. 1 WRPS is monitoring the issue and expects
the mixing/sampling demonstration activities to be delayed for approximately one year. At this
time, Office of River Protection (ORP) officials do not expect the delay to impact the overall
waste feed delivery actions that support startup of the WTP.



1
  Safety Significant structures, systems and components are those whose failure could
irreversibly impact worker safety such as a fatality, serious injury, or significant radiological or
chemical exposure.

                                                  2
According to ORP senior management, baseline activities for waste feed delivery are on
schedule to support meeting the legally binding Consent Decree with the State of Washington.
This decree requires the Department to achieve "Hot Start of Waste Treatment Plant" by
December 31, 2019. Upgrades to support waste feed delivery are scheduled to be completed in
time to support the start of WTP operations by 2019.

                                    Waste Acceptance Criteria

Although the waste feed delivery system is aligned with the current baseline schedule to permit
completion in time to support commissioning of the WTP, we are concerned that the WAC for
the WTP had not been finalized by the time our review was completed. The lack of established
criteria increases the risk or uncertainty as to whether the tank farm will be able to provide feed
to the WTP. The Department recognized this issue and took actions to mitigate the risk by
committing to defining and finalizing the WAC in 2015 as part of its Implementation Plan to
address Defense Nuclear Facilities Safety Board Recommendation 2010-2, Pulse Jet Mixing at
the WTP. According to WRPS officials, there would be adequate time to formulate the waste to
meet the WAC if the criteria are finalized by 2015. WRPS will be required to meet the WAC
once it is defined.

To the Department's credit, it has chartered a Waste Feed Technical Resolution Team, consisting
of members from ORP, BNI and WRPS, to provide timely resolution of process issues and
challenges that impact the WTP. The technical resolution team is charged with identifying,
prioritizing, assembling and providing guidance to technical tasks teams in support of technical
issue resolution. The technical resolution team will consider issues such as the WAC and Data
Quality Objectives development, the Implementation Plan for Defense Board Recommendation
2010-2, Waste Feed Delivery interfaces, interface controls, sampling and analysis, mission
planning, and simulant development. Additionally, the Department has formed a team of high-
level experts to assist in resolving technical issues and making recommendations for
improvements related to the WTP "black cells." The recently formed black cell review team's
recommendations may impact the waste feed delivery approach. Black cells are enclosed rooms
where inspection, maintenance, repair or replacement of equipment or components is impractical
because there is no engineered access. In April 2012, the Office of Inspector General issued The
Department of Energy's $12.2 Billion Waste Treatment and Immobilization Plant – Quality
Assurance Issues – Black Cell Vessels, (DOE/IG-0863), that identified weaknesses in quality
assurance records pertaining to the black cells.

SUGGESTED ACTIONS

The Department's ongoing actions to address risks with the WAC and tank waste feed and
characterization are proactive. However, given the importance of treating, immobilizing and
disposing of hazardous and highly radioactive waste, we suggest that the Manager, Office of
River Protection closely monitor:

    1. The WTP WAC, to include the necessary studies as required by the Implementation Plan
       for Defense Nuclear Facilities Safety Board Recommendation 2010-2, Pulse Jet Mixing
       at the WTP;

                                                 3
    2. The procurement and fabrication of the in-tank submersible mixer pumps; and,

    3. The contractor's EVMS waste feed delivery activities and take timely actions to address
       unfavorable variances to cost and schedule.

On August 8, 2012, the Defense Nuclear Facilities Safety Board sent a letter to the Department
expressing concern about certain design issues associated with the WTP's slurry transport system
and hazards associated with potential plugging of waste transport lines and potential problems
with waste pumps. It is important to note that we did not review the WTP's waste slurry
transport system that is being designed by BNI. Rather, this audit examined issues associated
with plans for the Tank Waste Feed and Delivery System that is being designed by WRPS.
Nonetheless, the Department's Deputy Federal Project Director for Waste Feed Delivery
confirmed that the issues in the Board's August 8, 2011 letter did not apply to the project under
review in this audit.

We coordinated closely with management officials during the course of our review. We
appreciate the cooperation of all involved in this audit.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Senior Advisor for Environmental Management
    Chief of Staff




                                                4
                                                                                   Attachment 1



                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
will complete the waste feed delivery system in time to support operation of Waste Treatment
and Immobilization Plant (WTP) when it begins operations in 2019.

SCOPE

This review was performed between September 2011 and August 2012, at the Department's
Office of River Protection (ORP) in Richland, WA. The scope of our audit included a review of
the Department's waste feed delivery system to support startup and operation of the WTP in
2019.

METHODOLOGY

To accomplish the objective of this audit, we:

    • Obtained and reviewed Department Orders, laws and regulations relevant to the waste
      feed delivery system and the WTP;

    • Obtained and reviewed the Department, ORP, and Washington River Protection
      Solutions (WRPS) policies and related to the waste feed delivery system;

    • Reviewed findings from prior audits regarding waste feed delivery system activities to
      process facilities;

    • Reviewed the WRPS contract with Department;

    • Held discussions with Department and contractor officials regarding the waste feed
      delivery system; and,

    • Reviewed and compared the critical path activities for the waste feed delivery system to
      the startup and operation of the WTP.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
tests of controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. In particular, we assessed the implementation of the GPRA Modernization Act of 2010
and found that the Department had established performance measures related to the Waste Feed


                                                 5
                                                                        Attachment 1 (continued)


Delivery System. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We did not rely upon
computer-processed data to accomplish our audit objective.

Management waived an exit conference.




                                                6
                                                                                    Attachment 2


                                      PRIOR REPORTS


Office of Inspector General Reports

   •   Audit Report on Management of the Tank Farm Recovery Act Infrastructure Upgrades
       Project, (OAS-RA-L-11-03, February 9, 2011). The audit found that the Department
       selected Recovery Act funding that supported the goal of upgrading tank farm
       infrastructure and waste feed delivery systems. Additionally, the Department was on
       schedule to complete the Recovery Act upgrades by September 30, 2011 as planned, and
       at less cost than the estimated costs. Due to a lack of contract proposal detail, however,
       we were unable to verify whether all of the Recovery Act funded work represented an
       acceleration of overall workscope.

   •   Audit report on The Department of Energy's $12.2 Billion Waste Treatment and
       Immobilization Plant – Quality Assurance Issues – Black Cell Vessels, (DOE/IG-0863,
       April 25, 2012). The audit revealed a number of instances where quality assurance
       requirements were not completely followed for processing vessels installed in black cells
       and/or hard-to-reach areas. Specifically, the WTP contractor had not obtained or
       maintained: weld maps, identifying the specific location of each weld; information on
       welding procedures, the qualifications of the welder, materials used in the vessels and
       non-destructive examinations (NDE); and, positive material tests, which ensure that the
       materials used to fabricate the vessels were compatible with expected operating
       conditions. Weaknesses in quality assurance records associated with black cell and hard-
       to-reach processing vessels occurred because of deficiencies in the WTP contractor's
       implementation of a quality assurance program and inadequate Department oversight.




                                                7
                                                                    IG Report No. OAS-L-12-09

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
